Appellate Case: 20-3138

Document: 010110439851

Date Filed: 11/18/2020

UNITED STATES COURT OF APPEALS

Page: 1
FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

November 18, 2020
Christopher M. Wolpert
Clerk of Court

PATRICK C. LYNN,
Plaintiff - Appellant,
v.

No. 20-3138
(D.C. No. 5:20-CV-03116-EFM)
(D. Kan.)

DEBRA LUNDRY,
Defendant - Appellee.

ORDER

On September 21, 2020, this court: (1) held that the Prison Litigation Reform Act,
28 U.S.C. § 1915(g), applies to this appeal; (2) ordered appellant Patrick C. Lynn to pay
the full $505.00 appellate filing fee to the district court on or before October 21, 2020;
and (3) advised Mr. Lynn that, if the district court did not receive timely payment in full
of the appellate filing fee, this court would dismiss his appeal without further notice. See
28 U.S.C. § 1915(g); 10th Cir. R. 3.3(B), 10th Cir. R. 42.1. The court later extended the
time for Mr. Lynn to pay to November 13, 2020.
This matter is now before the court because Mr. Lynn has not paid the appellate
filing fee to the district court. Accordingly, the court dismisses Mr. Lynn’s appeal for
failure to prosecute. See 10th Cir. R. 3.3(B) and 42.1.

Appellate Case: 20-3138

Document: 010110439851

Date Filed: 11/18/2020

Page: 2

A copy of this order shall stand as and for the mandate of the court.
Entered for the Court
CHRISTOPHER M. WOLPERT, Clerk

by: Lisa A. Lee
Counsel to the Clerk

2

Case 5:20-cv-03116-EFM Document 30 Filed 06/30/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
PATRICK C. LYNN,
Plaintiff,
CASE NO. 20-3116-EFM

v.

DEBRA LUNDRY,
Defendant.
MEMORANDUM AND ORDER
Plaintiff Patrick C. Lynn is a state prisoner now housed at El Dorado Correctional Facility
in El Dorado, Kansas. Plaintiff filed this § 1983 action, primarily complaining about not being
permitted to keep his prescribed heart medication on his person while he was housed at Hutchinson
Correctional Facility.
The Court entered an Order (Doc. 4) denying Plaintiffs motion to proceed in forma
pauperis, finding Plaintiff is subject to the “three-strikes” provision under 28 U.S.C. § 1915(g).
The Court examined the Complaint and attachments, as well as Plaintiffs motion, and found no
showing of imminent danger of serious physical injury. The Court also granted Plaintiff until May
14, 2020, to submit the $400.00 filing fee and extended the deadline to June 15, 2020, upon
Plaintiffs motion. See Doc. 6. The Court’s Order provided that “[t]he failure to submit the fee
by that date will result in the dismissal of this matter without prejudice and without additional prior
notice.” (Doc. 4, at 3; Doc. 6.) Plaintiff has failed to pay the filing fee by the deadline.
Rule 41(b) of the Federal Rules of Civil Procedure “authorizes a district court, upon a
defendant’s motion, to order the dismissal of an action for failure to prosecute or for failure to
comply with the Federal Rules of Civil Procedure or ‘a court order.’” Youngv. U.S., 316 F. App’x

l

Case 5:20-cv-03116-EFM Document 30 Filed 06/30/20 Page 2 of 2

764, 771 (10th Cir. 2009) (citing Fed. R. Civ. P. 41(b)). “This rule has been interpreted as
permitting district courts to dismiss actions sua sponte when one of these conditions is met.” Id.
(citing Link v. Wabash R.R. Co., 370 U.S. 626, 630-31 (1962); Olsen v. Mapes, 333 F.3d 1199,
1204 n.3 (10th Cir. 2003)). “In addition, it is well established in this circuit that a district court is
not obligated to follow any particular procedures when dismissing an action without prejudice
under Rule 41(b).” Young, 316 F. App’x at 771-72 (citations omitted).
The time in which Plaintiff was required to submit the filing fee has passed without a
response from Plaintiff. As a consequence, the Court dismisses this action without prejudice
pursuant to Rule 41(b) for failure to comply with court orders. The Amended Motion for Order
filed by Plaintiff (Doc. 22) is denied as moot.
IT IS THEREFORE ORDERED BY THE COURT that this action is dismissed without
prejudice pursuant to Fed. R. Civ. P. 41(b).
IT IS FURTHER ORDERED that Plaintiffs Amended Motion for Order (Doc. 22) is
denied as moot.
IT IS SO ORDERED.
Dated on this 30th day of June, 2020, in Wichita, Kansas.

?
ERIC F. MELGREN
U. S. District Judge

2

Additional material
from this filing is
available in the
Clerk's Office.

